Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    DIETARY SUPPLEMENTS:
 STRUCTURE/FUNCTION CLAIMS
    FAIL TO MEET FEDERAL
        REQUIREMENTS




                    Daniel R. Levinson
                     Inspector General

                      October 2012
                     OEI-01-11-00210
DIETARY SUPPLEMENTS: STRUCTURE/FUNCTION CLAIMS FAIL TO MEET
FEDERAL REQUIREMENTS, OEI-01-11-00210

WHY WE DID THIS STUDY

The Government Accountability Office and public interest groups have raised concerns
about a specific type of claim—called a structure/function claim—that manufacturers
may use on dietary supplement labels. Manufacturers have used these claims to promote
health benefits of their products. Stakeholders have urged the Food and Drug
Administration (FDA) to strengthen oversight of these claims because they are
potentially misleading and may lack scientific support. FDA lacks authority to review or
approve these claims before products enter the market. Manufacturers must have
competent and reliable scientific evidence to show that claims are truthful and not
misleading, but they do not have to submit the substantiation to FDA, and FDA has only
voluntary standards for it. A manufacturer must notify FDA when it uses
structure/function claims, and a product label must include a disclaimer stating that FDA
has not reviewed the claim and that the product is not intended to diagnose, treat, cure, or
prevent any disease.

HOW WE DID THIS STUDY

We analyzed structure/function claims for a purposive sample of 127 dietary supplements
marketed for weight loss or immune system support. We reviewed the claims to
determine the extent to which they complied with FDA regulations. We reviewed
substantiation provided by manufacturers to describe the quantity and nature of the
evidence. We also assessed the accuracy and completeness of notification letters that
manufacturers must submit to FDA for their structure/function claims.

WHAT WE FOUND

Overall, substantiation documents for the sampled supplements were inconsistent with
FDA guidance on competent and reliable scientific evidence. FDA could not readily
determine whether manufacturers had submitted the required notification for their claims.
Seven percent of the supplements lacked the required disclaimer, and 20 percent included
prohibited disease claims on their labels. These results raise questions about the extent to
which structure/function claims are truthful and not misleading.

WHAT WE RECOMMEND

We recommend that FDA seek explicit statutory authority to review substantiation for
structure/function claims to determine whether they are truthful and not misleading. We
recommend that FDA improve the notification system for these claims to make it more
organized, complete, and accurate. We also recommend that FDA expand market
surveillance to enforce the use of disclaimers for structure/function claims and to detect
disease claims. In its comments on the draft report, FDA did not explicitly concur with
our first recommendation, but said it would consider it. FDA concurred with our second
and third recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................7
Findings...................................................................................................... 11
           Supplements had multiple structure/function claims that stated
           various health benefits ................................................................... 11
           Substantiation documents for structure/function claims were not
           consistent with FDA guidance ....................................................... 11
           FDA could not readily determine the extent to which
           manufacturers of sampled supplements had submitted the
           required notification for their structure/function claims ................15
           Seven percent of supplements in our sample were missing the
           required disclaimer for structure/function claims ..........................16
           Twenty percent of the supplements in our sample had prohibited
           disease claims on the labels ...........................................................16
Conclusion and Recommendations ............................................................18
           Agency Comments and Office of Inspector General Response.....20
Appendix ....................................................................................................21
           A: Additional Descriptive Statistics ..............................................21
           B: Agency Comments ...................................................................24
Acknowledgments......................................................................................27
                   OBJECTIVES
                   1. To determine the extent and nature of structure/function claims on
                      selected weight loss and immune support dietary supplement labels.
                   2. To assess the extent to which documentation used to substantiate
                      structure/function claims on selected weight loss and immune support
                      supplement labels was consistent with Food and Drug Administration
                      (FDA) guidance.
                   3. To determine the extent to which structure/function claims on selected
                      weight loss and immune support dietary supplements complied with
                      FDA regulations related to notification and disclaimers.
                   4. To determine the extent to which selected weight loss and immune
                      support dietary supplement labels included prohibited disease claims.

                   BACKGROUND
                   In the United States, dietary supplements are a $20 billion-per-year
                   industry and are used by 80 percent of adults for a wide range of
                   purposes. 1 Products for weight loss or immune system support represent
                   some of the fastest growing segments of the dietary supplement market. 2, 3
                   Previous Office of Inspector General (OIG) and Government
                   Accountability Office (GAO) reports highlighted problems with dietary
                   supplement labels and the claims used to market supplements. 4, 5 GAO
                   and public interest groups have raised concerns about a specific type of
                   claim—called a structure/function claim—that manufacturers may use on
                   dietary supplement labels. 6, 7, 8 In recent years, manufacturers have

                   1
                     Natural Products Foundation, What is the Current Economic Contribution of the Dietary
                   Supplement Industry to the U.S. Economy? Accessed at www.naturalproductsfoundation.org
                   on May 31, 2010.
                   2
                     GAO, Dietary Supplements for Weight Loss: Limited Federal Oversight Has Focused More
                   on Marketing than on Safety, GAO-02-985T, July 2002.
                   3
                     Nutraceuticals World, Getting Ahead of the Curve: Immunity, October 1, 2010. Accessed at
                   www.nutraceuticalsworld.com on March 16, 2012.
                   4
                     OIG, Dietary Supplement Labels: Key Elements, OEI-01-01-00120, March 2003; and
                   Dietary Supplement Labels: An Assessment, OEI-01-01-00121, March 2003.
                   5
                     GAO, Dietary Supplements: Examples of Deceptive or Questionable Marketing Practices
                   and Potentially Dangerous Advice, GAO-10-662T, May 25, 2010; and Dietary Supplements:
                   FDA Should Take Further Actions to Improve Oversight and Consumer Understanding,
                   GAO-09-250, January 2009.
                   6
                     GAO, Food Labeling: FDA Needs to Reassess Its Approach to Protecting Consumers from
                   False or Misleading Claims, GAO-11-102, January 2011.
                   7
                     Center for Science in the Public Interest, Food Label Trickery: New Claims On Foods Can
                   Mislead & Confuse, May 30, 2003. Accessed at www.cspinet.org on March 19, 2012.
                   8
                     Public Citizen, Reduction In Cancer Risk Claim for Antioxidant Vitamins Rejected by the
                   Food and Drug Administration, July 2001. Accessed at www.citizen.org on March 19, 2012.
                                                                                                           1
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   increasingly used structure/function claims, which do not require
                   preapproval by FDA, to promote the health benefits of their products. 9
                   Stakeholders have urged FDA to strengthen its oversight of
                   structure/function claims because such claims are potentially misleading to
                   consumers and may lack scientific support. 10 Critics of structure/function
                   claims have asserted that the claims imply that the supplement will
                   prevent or treat disease or dysfunction, which is prohibited for dietary
                   supplements. 11, 12, 13, 14
                   Dietary Supplements
                   The Dietary Supplement Health and Education Act (DSHEA) of 1994, an
                   amendment to the Federal Food, Drug, and Cosmetic Act, defines a dietary
                   supplement as, in part, a product that is ingested by mouth to supplement
                   the diet and contains one or more of the following ingredients:
                       •    a vitamin;
                       •    a mineral;
                       •    an herb or other botanical;
                       •    an amino acid;
                       •    a dietary substance for use by man to supplement the diet by
                            increasing the total dietary intake; or
                       •    a concentrate, a metabolite, a constituent, or an extract. 15
                   DSHEA does not require manufacturers to submit dietary supplements to
                   FDA for safety testing or approval prior to sale. 16 As a result, FDA has no
                   comprehensive list of dietary supplements on the market. Dietary
                   supplement manufacturers must ensure that their products are safe, that

                   9
                     GAO, Food Labeling: FDA Needs to Reassess Its Approach to Protecting Consumers from
                   False or Misleading Claims, GAO-11-102, January 2011.
                   10
                      Ibid.
                   11
                      Center for Science in the Public Interest, FDA Needs Authority To See Evidence on
                   Structure/Function Claims, Says GAO, January 14, 2011. Accessed at www.cspinet.org on
                   March 23, 2012.
                   12
                      USA Today, Many Food Label Claims May Mislead Rather Than Inform, January 31,
                   2011. Accessed at www.usatoday.com on March 23, 2012.
                   13
                      P. Wilde, GAO: FDA Lacks the Power It Needs to Address Structure /Function Claims,
                   January 15, 2011. Accessed at www.usfoodpolicy.blogspot.com on March 23, 2012.
                   14
                      21 U.S.C. § 343(r)(6).
                   15
                      P.L. 103-417 § 3 (codified at 21 U.S.C. § 321(ff)(1)).
                   16
                      The law does consider a dietary supplement product containing a “new dietary ingredient,”
                   which is any dietary ingredient not marketed in the United States prior to 1994, as adulterated
                   unless it meets one of two statutory requirements: the supplement must contain only dietary
                   ingredients that have been present in the food supply, or there must be a history of use or other
                   evidence of safety establishing that the dietary ingredient will reasonably be expected to be
                   safe. 21 U.S.C. § 350b.
                                                                                                                  2
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   they have evidence to substantiate structure/function claims, and that
                   product labels are truthful and not misleading. 17
                   FDA is responsible for ensuring that dietary supplements marketed to U.S.
                   consumers are safe. FDA does this by monitoring adverse event reports
                   and consumer complaints, searching the Internet for supplements that do
                   not comply with regulations, conducting onsite inspections of
                   manufacturers’ facilities or imported shipments of supplements, and
                   reviewing new dietary ingredient notifications. 18 FDA does not conduct
                   surveillance of dietary supplements sold in retail establishments; however,
                   it does conduct limited surveillance of supplements sold on the Internet.
                   Claims on Dietary Supplement Labeling
                   FDA’s Center for Food Safety and Applied Nutrition has primary
                   responsibility for overseeing claims made on dietary supplement
                   labeling. 19 Among the most commonly used claims on dietary
                   supplement labels are nutrient content claims, health claims, and
                   structure/function claims. FDA regulates each of these types of claims
                   differently. 20
                   Nutrient content claims describe the level of a nutrient in a dietary
                   supplement or other food (e.g., “200 mg of folic acid,” “low fat,” or “high
                   fiber”). 21 Health claims describe a relationship between a food or food
                   component (including a dietary supplement ingredient) and reduced risk of
                   a disease or health-related condition. “Adequate calcium throughout life,
                   as part of a well-balanced diet, may reduce the risk of osteoporosis” is an
                   example of a health claim. 22 FDA reviews petitions for nutrient content
                   claims and health claims and either authorizes or denies them depending
                   on the amount of supporting scientific evidence. 23, 24 Generally, nutrient


                   17
                      21 U.S.C. § 343(a)(1); 21 U.S.C. § 343(r)(6)(B); 21 U.S.C. § 342(f).
                   18
                      21 U.S.C. § 350b.
                   19
                      “Label” means a display of written, printed, or graphic matter upon the container,
                   21 U.S.C. § 321(k); “labeling” means all labels and other written, printed, or graphic matter
                   upon the product or any of its containers, wrappers, or accompanying promotional material,
                   21 U.S.C. § 321(l). See also 21 CFR § 1.3. FDA may take enforcement action against claims
                   made on Web sites as well as claims printed on the supplement package.
                   20
                      In addition, dietary supplements may bear claims that do not fall into a defined category as
                   long as the claim is truthful and not misleading.
                   21
                      21 CFR § 101.13(b); mg=milligrams.
                   22
                      21 CFR § 101.14(a)(1).
                   23
                      FDA has authorized 12 health claims by regulation, none of which relates to weight loss or
                   immune support.
                   24
                      Qualified health claims, which are also permitted by FDA, are health claims that do not
                   meet the evidentiary standard for an FDA-authorized health claim (see 21 U.S.C. §
                   343(r)(3)(B)(i)), but are supported by credible evidence and include a disclaimer or other
                   qualifying language to prevent the claims from being misleading.
                                                                                                                 3
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   content claims or health claims not explicitly authorized by FDA are
                   prohibited.
                   Structure/Function Claims
                   In general, structure/function claims describe the role of a dietary
                   supplement in the structure and function of human bodies, but the claims
                   may not explicitly or implicitly claim to prevent, treat, mitigate, cure, or
                   diagnose a disease. 25 A structure/function claim may also:
                        •   claim a benefit related to a classical nutrient deficiency disease
                            (e.g., scurvy) and disclose the prevalence of such disease in the
                            United States,
                        •   characterize the documented mechanism by which a nutrient or
                            dietary ingredient acts to maintain such structure or function, or
                        •   describe general well-being from consumption of a nutrient or
                            dietary ingredient. 26
                   For example, a supplement may claim that it “curbs appetite to help with
                   weight loss,” but it may not claim to “aid weight loss to treat obesity”
                   because obesity is a disease. Similarly, a supplement may claim to
                   “support immunity,” but may not claim to “boost the immune system
                   against colds and flu” because the latter references specific diseases.
                   Although FDA has issued regulations and published guidance describing
                   the difference between structure/function claims and disease claims, it
                   acknowledges the challenge of distinguishing between the two. 27
                   DSHEA requires manufacturers to meet three requirements for placing a
                   structure/function claim on a supplement label: (1) substantiation that the
                   claim is truthful and not misleading, (2) notification to FDA within
                   30 days of marketing the supplement with the claim, and (3) a disclaimer
                   on the supplement label. 28
                   Substantiation of Structure/Function Claims. Manufacturers must have
                   substantiation for the structure/function claims on their products’ labels to
                   ensure that they are truthful and not misleading. In any legal proceeding
                   concerning structure/function claims, FDA must prove that the claim is




                   25
                      21 U.S.C. § 343(r)(6); 21 CFR § 101.93(f)-(g); FDA, Structure/Function Claims, Small
                   Entity Compliance Guide, January 9, 2002. Accessed at www.fda.gov on February 13, 2012.
                   26
                      21 U.S.C. § 343(r)(6)(A); see also 21 CFR § 101.93.
                   27
                      21 CFR § 101.93(f)-(g); FDA, Structure/Function Claims, Small Entity Compliance Guide,
                   January 9, 2002. Accessed at www.fda.gov on February 13, 2012.
                   28
                      21 U.S.C. § 343(r)(6).
                                                                                                           4
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   false or misleading. 29 However, DSHEA does not require manufacturers
                   to submit the substantiation to FDA to determine its adequacy, and FDA
                   may not compel manufacturers to produce substantiation upon request.
                   Therefore, FDA has limited authority to enforce the substantiation
                   requirement.
                   FDA has published guidance on the extent and nature of substantiation
                   that manufacturers should have to comply with the law. 30 In general, FDA
                   recommends that evidence be derived primarily from human studies that
                   use widely accepted scientific methods. The guidance also lists types of
                   background information—such as in vitro or animal studies, meta-
                   analyses, and review articles—that manufacturers may use to substantiate
                   claims. However, the guidance notes that background information, when
                   used alone, may not be adequate to substantiate claims. 31
                   FDA uses a standard of “competent and reliable scientific evidence” for
                   substantiation. To meet this standard, FDA recommends that
                   manufacturers consider the following when substantiating
                   structure/function claims:
                        •   The relationship of the evidence to the claim. The evidence should
                            demonstrate a direct effect of the supplement on a structure or
                            function of the body in a population similar to that which will be
                            consuming the product. The evidence should test either the
                            product itself or an amount and potency of the active ingredients
                            that are similar to the product.
                        •   The totality of the evidence. Manufacturers should consider the
                            total body of evidence—both favorable and unfavorable—in
                            determining whether it is adequate to substantiate a claim. If
                            evidence conflicts or shows inconsistent results, it will raise
                            questions about whether a structure/function claim is substantiated.
                        •   The quality of the evidence. Manufacturers must consider the
                            scientific quality of studies used to substantiate claims. FDA
                            considers human studies that are randomized, double-blind,

                   29
                      An enforcement action against a dietary supplement based on an unsubstantiated
                   structure/function claim could be brought under certain provisions of the Federal Food, Drug
                   and Cosmetic Act, such as 21 U.S.C. §§343(a)(1) and 343(r)(6) and 21 U.S.C. §§ 331, 332,
                   and/or 334.
                   30
                      FDA, Guidance for Industry: Substantiation for Dietary Supplement Claims Made Under
                   Section 403(r) (6) of the Federal Food, Drug, and Cosmetic Act, December 2008. Accessed
                   at www.fda.gov on February 17, 2012. Following FDA’s guidance on substantiation is
                   recommended, but not required.
                   31
                      FDA guidance lists seven types of documentation that would be considered background
                   information: animal studies, in vitro studies, testimonials or anecdotal evidence, meta-
                   analyses, review articles, comments and letters to the editor, and product monographs.
                                                                                                                  5
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                            parallel group, placebo-controlled trials that focus on a
                            representative population to be the “gold standard” for
                            substantiation. Manufacturers may use other human or nonhuman
                            studies to substantiate claims, but should consider factors in the
                            studies’ methods that may affect the results.
                        •   The meaning of the claim(s) being made. Manufacturers should
                            have substantiation for each possible interpretation of a
                            structure/function claim. For example, a supplement may claim to
                            “promote weight loss.” If the manufacturer’s evidence is a study
                            showing that the supplement’s main ingredient temporarily
                            increases metabolism, but not showing actual weight loss, then the
                            manufacturer has not accounted for the meaning of the claim in its
                            substantiation. 32
                   Notification to FDA. Dietary supplement manufacturers must notify FDA
                   of any structure/function claims no later than 30 days after first
                   introducing a product into the market. The notification must include the
                   name and address of the manufacturer, the text of the claim, the name of
                   the ingredient for which the claim is being made, and the name of the
                   dietary supplement. In the notification, the manufacturer must attest that it
                   has substantiation that the claim is truthful and not misleading. The
                   notification must be signed by a person who can certify the accuracy and
                   completeness of the information. 33
                   FDA reviews each notification to ensure it meets the definition of a
                   structure/function claim. If it does not, FDA sends a letter to the
                   manufacturer notifying it that the claim is not in compliance and follows
                   up as needed. FDA keeps copies of all notifications on file. 34
                   Disclaimer. All structure/function claims must be accompanied by the
                   following mandatory disclaimer: “This statement has not been evaluated
                   by the Food and Drug Administration. This product is not intended to
                   diagnose, treat, cure, or prevent any disease.” 35
                   Prohibition on disease claims
                   Dietary supplements may not include disease claims on their labels or in
                   other labeling. A disease claim is defined as a claim that mentions or
                   implies the mitigation, treatment, diagnosis, prevention, or cure of a

                   32
                      FDA, Substantiation for Dietary Supplement Claims Made Under Section 403(r) (6) of the
                   Federal Food, Drug, and Cosmetic Act, December 2008. Accessed at www.fda.gov on
                   February 17, 2012.
                   33
                      21 CFR § 101.93(a)(2).
                   34
                      The number of manufacturers that do not submit structure/function claims to FDA is
                   unknown.
                   35
                      21 CFR § 101.93(c)(1).
                                                                                                               6
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   disease or its symptoms. 36 For example, a dietary supplement may not
                   claim that it “prevents or treats cancer,” “reduces pain associated with
                   arthritis,” or “relieves bronchospasms” (which would imply treatment of a
                   disease because bronchospasms are a symptom of asthma). A product that
                   assists in the diagnosis, mitigation, treatment, cure, or prevention of a
                   disease is considered a drug under the Federal Food, Drug, and Cosmetic
                   Act. 37
                   If FDA learns that the label of a product marketed as a dietary supplement
                   contains a disease claim, it treats the product as an unapproved drug and
                   may take enforcement action against the manufacturer or distributor.
                   Actions include issuing a warning letter, seizing the product, seeking
                   criminal prosecution, or prohibiting the sale of the product through an
                   injunction. 38
                   Companion Report on Dietary Supplements
                   This report is being issued in conjunction with another OIG evaluation
                   report entitled Dietary Supplements: Companies May Be Difficult To
                   Locate in an Emergency (OEI-01-11-00211). Both reports are based on
                   the same sample of dietary supplements.

                   METHODOLOGY
                   Scope
                   This study analyzed the structure/function claims on a purposive sample of
                   127 dietary supplements marketed for weight loss or immune system
                   support in retail stores and on the Internet. All of the supplements in our
                   sample had one or more structure/function claims on their labels. We
                   reviewed the structure/function claims to determine the extent to which
                   they complied with FDA regulations. We also reviewed substantiation
                   documents submitted by dietary supplement manufacturers to describe the
                   quantity and nature of the evidence. We did not test the scientific validity
                   of the substantiation, nor did we determine whether the documents were
                   adequate to substantiate the claims. For the supplements in our sample,
                   we also assessed the accuracy and completeness of notification letters that
                   manufacturers must submit to FDA for their structure/function claims.
                   Our findings from this evaluation are limited to the weight loss and
                   immune support supplements in our sample.




                   36
                        21 U.S.C. § 343(r)(6); 21 CFR § 101.93(g).
                   37
                        21 U.S.C. § 321(g)(1)(B).
                   38
                        21 U.S.C. § 332; 21 U.S.C. § 333; 21 U.S.C. § 334.
                                                                                                     7
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   Data Collection and Analysis
                   We focused on two types of supplements—immune support supplements
                   and weight loss supplements—after consulting with FDA. Our sample
                   included 67 immune support supplements and 60 weight loss supplements.
                   We purchased 67 of the supplements from retail stores and 60 from
                   Internet sites.
                   Supplements Purchased From Retail Stores. To purchase supplements
                   from retail stores, we selected five major cities to achieve a wide regional
                   distribution: New York, Chicago, Dallas, Los Angeles, and Seattle.
                   Within each city, we purchased a minimum of 12 unique supplements
                   from a mix of small and large pharmacies, supermarkets, and supplement
                   retailers. We did not seek supplements that appeared to violate FDA
                   regulations, but rather we sought to purchase a variety of weight loss and
                   immune support supplements with a variety of structure/function claims
                   on their labels.
                   Supplements Purchased From the Internet. To select supplements from
                   Internet sources, we created a set of search terms related to weight loss or
                   immune support. Using three major search engines, we searched the
                   Internet with these terms. We selected sites and products with the goal of
                   purchasing as many different brands of supplements as possible.
                   Review of Structure/Function Claims and Disease Claims on Supplement
                   Labels. We reviewed the structure/function claims on the labels and
                   labeling of sampled supplements to determine the extent to which they
                   included disease claims. 39 We also reviewed labels and labeling for the
                   required disclaimer.
                   Review of Notification Letters for Structure/Function Claims. To
                   determine the extent to which structure/function claims are on file at FDA,
                   we asked FDA to retrieve notification letters using a list of the
                   127 sampled supplements and the companies that make them. We
                   analyzed the letters to determine the extent to which they included
                   required information (e.g., manufacturer contact information, notice that
                   the manufacturer has substantiation for the claim). We also compared the
                   claims on the product with those in the letters to determine whether they
                   matched.
                   Manufacturers’ Substantiation of Structure/Function Claims. We
                   requested substantiation from manufacturers for 119 of the supplements in


                   39
                     21 CFR § 1.3. “Labeling” includes any text or graphics on Web sites where the
                   supplements are sold. FDA may take enforcement action against claims made on Web sites as
                   well as claims printed on the actual product package. We reviewed structure/function claims
                   on Web sites for supplements purchased from the Internet.
                                                                                                            8
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   our sample. We dropped 8 supplements from our original sample of
                   127 either because the manufacturers were outside the United States or
                   because we could not reach them by telephone or mail. We asked
                   manufacturers to submit documentation that substantiated the
                   structure/function claims on their products.
                   We requested the substantiation by mail and followed up by telephone or
                   email when necessary. We made three attempts to contact each
                   manufacturer.
                   We received 1,624 substantiation documents from 66 manufacturers,
                   representing 72 (61 percent) of the 119 supplements for which we
                   requested substantiation.
                   From each substantiation document, we abstracted key pieces of
                   information, such as what type of document it was (e.g., human study,
                   review article, product monograph), whether it included the name of the
                   supplement, and which structure/function claim it was intended to support.
                   For human studies, we also noted the methods and population studied and
                   the results of the studies and noted whether they clearly stated support for
                   the structure/function claims. We did not assess factors such as statistical
                   power, selection biases, or limitations. (For additional descriptive
                   statistics, see Appendix A.)
                   Limitations
                   Because no comprehensive list of dietary supplements or manufacturers
                   exists, the universe of supplements and manufacturers is unknown.
                   Therefore, we were unable to select a random sample of supplements and
                   we do not generalize our findings beyond the products in our review.
                   We did not determine whether manufacturers submitted notifications for
                   structure/function claims to FDA within 30 days of marketing their
                   supplements because FDA lacks information on when supplements enter
                   the retail market.
                   Manufacturers were not required to respond to our requests for
                   substantiation of their structure/function claims. Therefore, any
                   substantiation we received may not be representative of substantiation in
                   general.
                   Through guidance documents, FDA outlines the amount, type, and quality
                   of evidence it believes is necessary to substantiate a claim. When
                   reviewing substantiation documents, we focused on human studies
                   because FDA recommends them as the primary basis for structure/function
                   claims. We did not assess background documents (e.g., in vitro studies,
                   animal studies) against FDA guidance on competent and reliable scientific
                   evidence because the nature and methods of the studies varied widely.
                                                                                                     9
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   We also did not determine whether manufacturers adequately substantiated
                   their structure/function claims because this would require a full scientific
                   review, which was beyond the scope of this evaluation. Instead, we
                   described the substantiation documents and compared them with FDA
                   guidance.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                                                                                                     10
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   FINDINGS
                   Supplements had multiple structure/function claims
                   that stated various health benefits
                   The 127 supplements in our sample had a total of 378 structure/function
                   claims, ranging from 1 to 12 per supplement. The median number of
                   structure/function claims per supplement was three. Structure/function
                   claims related to weight loss generally focused on reducing or burning
                   body fat, increasing metabolism, suppressing appetite, or overall weight
                   reduction. Claims related to immune support varied, focusing on free
                   radicals or antioxidant properties, increasing antibody production, or
                   supporting general immune function. See Table 1 for examples.
                     Table 1: Examples of Structure/Function Claims From Sampled Dietary
                     Supplements, by Type


                     Weight Loss Supplement                             Immune Support Supplement



                                                                        “Maintains peak natural killer cell function,
                    “Helps burn fat faster with exercise … helps
                                                                        supports enhanced cytokine production,
                    stimulate metabolism … helps support healthy
                                                                        promotes optimal T-cell and macrophage
                    weight maintenance”
                                                                        activity”
                                                                        “Traps the toxins, free radicals, and metals
                    “Controls your appetite and sugar cravings …
                                                                        from your body … a one-two punch in
                    burns excess calories for energy … antioxidants
                                                                        detoxifying the body, balancing the body's
                    to enhance health and radiance”
                                                                        pH, and boosting the immune system”

                                                                        “Possesses 3 times more IgG and total
                    “Delays the digestion and absorption of
                                                                        immunoglobulins than colostrum and has
                    carbohydrates … enjoy many of the foods you
                                                                        twice as much cysteine, an important amino
                    love without worrying about the carbohydrates”
                                                                        acid for maintaining glutathione levels”

                                                                        “Boosts the immune system … supports
                    “Suppress appetite, reduce weight, increase
                                                                        breast, prostate, cardiovascular, vision, skin
                    energy, stimulate metabolic processes”
                                                                        and colon health”
                     Source: OIG analysis of structure/function claims from sampled dietary supplements, 2011.


                   Substantiation documents for structure/function
                   claims were not consistent with FDA guidance
                   Manufacturers are not required to submit substantiation to FDA or OIG for
                   structure/function claims. However, 66 of 104 manufacturers voluntarily
                   submitted substantiation documents in response to our request. We
                   reviewed 1,624 substantiation documents for 72 of the supplements in our
                   sample. The number of substantiation documents per supplement ranged
                   from 1 to 137, with a median of 7.
                   In contrast to FDA guidance, most substantiation was not derived from
                   human studies. Just over half of the substantiation documents would be
                                                                                                                        11
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   considered background information according to FDA guidance, and
                   10 percent of the documents appeared to have no significance in
                   supporting structure/function claims.
                   Of the 34 percent of substantiation documents that were human
                   studies, none met all of FDA’s recommendations for competent
                   and reliable evidence
                   Among the 1,624 substantiation documents that manufacturers submitted,
                   557 were human studies. Manufacturers of 55 supplements provided at
                   least 1 human study as substantiation for their claims. Although FDA does
                   not specify a minimum number of human studies needed to substantiate a
                   claim, it does recommend that such studies use widely accepted scientific
                   methods.
                   However, none of the human studies we reviewed met all four of the
                   elements that FDA recommends for competent and reliable scientific
                   evidence: (1) the relationship of the evidence to the claim; (2) the totality
                   of evidence; (3) the quality of the evidence, specifically high-quality
                   human studies; and (4) the meaning of the claim. 40
                   Human Studies Rarely Showed a Direct Relationship to the Claims. Only
                   2 percent of the 557 human studies that we reviewed studied the actual
                   products in our sample, in contrast to FDA guidance. FDA recommends
                   that studies used to substantiate claims “identify a specific dietary
                   supplement or ingredient and serving size and that the conditions of use in
                   the studies are similar to the labeling conditions of the dietary supplement
                   product.” FDA guidance also states that the results of studies that focus on
                   an ingredient in a product (but not the product itself or a similar
                   formulation) are not applicable to the specific dietary supplement product.
                   The remaining 98 percent of human studies focused on an active
                   ingredient that may have been in a different form, dose, or potency. 41 For
                   example, a weight loss supplement in our sample claimed that the
                   supplement burns fat because it contains green tea extract. A human study
                   supporting this claim involved subjects ingesting brewed green tea rather
                   than the green tea extract formulation used in the supplement. A study of
                   this type does not have a direct relationship to the claim because it


                   40
                      FDA, Substantiation for Dietary Supplement Claims Made Under Section 403(r) (6) of the
                   Federal Food, Drug, and Cosmetic Act, December 2008. Accessed at www.fda.gov on
                   February 17, 2012.
                   41
                      Because many supplement formulations are proprietary, their labels did not always list the
                   form, dose, or potency of the active ingredients. We could be certain of the form, dose, and
                   potency only in the 2 percent of studies that focused on the actual products. These were
                   generally proprietary studies commissioned by the manufacturers. The remaining 98 percent
                   of studies were published in trade or scientific journals.
                                                                                                              12
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   demonstrates the effect of a green tea in a formulation that is different
                   from that contained in the supplement.
                   Most Human Studies Did Not Appear To Represent the Totality of
                   Evidence. Among the 557 human studies that manufacturers submitted,
                   4 percent (20 studies) had results that contradicted the claims of sampled
                   supplements. 42 FDA guidance recommends that when determining
                   whether a claim is substantiated, manufacturers should consider all
                   available scientific evidence—both favorable and unfavorable—and
                   present the evidence in context.
                   Interviews with staff at the National Center for Complementary and
                   Alternative Medicine at the National Institutes of Health indicated that a
                   large body of science exists that contradicts existing structure/function
                   claims. Yet, 96 percent of the human studies we received were favorable
                   to the supplements’ claims, suggesting that manufacturers either have not
                   considered the body of available scientific evidence, that there is a positive
                   bias in the documents selected to substantiate their claims, or that no such
                   contradictory evidence exists.
                   Most Human Studies Were Not Consistent With FDA Guidance on Quality.
                   Overall, 85 percent of the 557 human studies we reviewed were not
                   randomized, double-blind, parallel group, placebo-controlled trials. FDA
                   guidance recommends that human intervention studies use these methods
                   because they offer the greatest assessment of a relationship between a
                   dietary supplement and an outcome.
                   In addition, 49 percent of the human studies were not based on
                   populations similar to those that will be consuming the supplements. FDA
                   guidance recommends that high-quality human studies use representative
                   populations with respect to factors such as age, geographic location, and
                   health status. For example, studies tested a supplement or its active
                   ingredient in elderly women with diabetes. But the effect of a product in
                   an older population with a disease (as opposed to a representative sample
                   of healthy individuals) could not be expected to translate to the general
                   population.
                   About a Third of Human Studies Were Not Consistent With FDA Guidance
                   on the Meaning of the Claim. One hundred eighty-nine (34 percent) of the
                   557 human studies we reviewed focused on disease research rather than



                   42
                      To assess the totality of evidence, we focused on human studies because their
                   methodologies are intended to show a direct effect on humans from a supplement or an
                   ingredient. The other types of substantiation documents varied widely and could not be
                   aggregated.
                                                                                                            13
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   the meaning of the structure/function claim. 43 FDA guidance recommends
                   that when assembling substantiation for claims, manufacturers consider
                   the meaning of the claims they are substantiating, including any implied
                   claims, and tailor the substantiation accordingly. For example, because
                   supplements may not make claims that directly state or imply the
                   treatment of a disease, studies that focus on diseases are inconsistent with
                   FDA guidance. If substantiation documents demonstrate a supplement’s
                   effect on a disease, they raise questions about the implied meaning of the
                   structure/function claims.
                   Among the substantiation documents, 56 percent would be
                   considered background information according to FDA
                   guidance
                   According to FDA guidance, information in background documents may
                   provide indirect support or context for structure/function claims, but this
                   information alone may not be sufficient to support the claims.
                   Manufacturers of eight supplements submitted only background
                   information as substantiation. In our review, background documents
                   submitted by manufacturers included in vitro or animal studies, review
                   articles, and other types shown in Table 2. Although manufacturers are
                   free to submit such documentation as part of their substantiation, FDA
                   does not consider these to be primary sources of evidence.
                        Table 2: Percentages of Substantiation Documents That Are Background
                        Information for Selected Supplements, by Type

                                                         Weight Loss Supplement        Immune Support Supplement
                        Background Document Type
                                                                         (n=280)                         (n=621)

                    In vitro study                                            13%                                   32%

                    Animal study                                              40%                                   35%

                    Reference book                                            14%                                   9%

                    Review article                                            28%                                   20%

                    Product monograph                                          4%                                   5%

                    Meta-analysis                                              2%                                   2%

                    Testimonial/anecdotal                                        0                                    0
                        Source: OIG analysis of dietary supplement manufacturers’ substantiation documents, 2011.
                        Columns do not sum to 100 percent because some studies used more than one methodology.




                   43
                      We counted a study as focusing on a disease when the disease or its major symptoms (e.g.,
                   insulin resistance in diabetics) was plainly stated. Other studies may have involved biological
                   processes associated with diseases, but we did not count these in our analysis.
                                                                                                                      14
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   The remaining 10 percent of documents did not qualify as
                   substantiation
                   Among the substantiation documents we reviewed, 166 did not fall into
                   any of the categories defined in FDA guidance. Manufacturers of nine
                   supplements submitted only this type of documentation as substantiation.
                   For example, one company submitted a 30-year-old handwritten college
                   term paper to substantiate its structure/function claim, while others
                   included articles from trade newsletters; press releases; advertisements;
                   and links to Web pages, such as Wikipedia or an online dictionary. Such
                   extraneous information suggests that some manufacturers may be
                   unfamiliar with FDA guidance on substantiation or that they performed
                   only cursory research to substantiate their claims.

                   FDA could not readily determine the extent to which
                   manufacturers of sampled supplements had submitted
                   the required notification for their structure/function
                   claims
                   FDA could retrieve notification letters for only 21 of 127 supplements in
                   our sample. FDA’s failure to locate notification letters raises questions
                   about its ability to adequately monitor and enforce manufacturers’
                   compliance with structure/function claim requirements.
                   FDA lacks a reliable tracking system for notification letters
                   FDA keeps two versions of notification letters: scanned letters, which are
                   filed in a centralized document management system; and paper copies,
                   which are stored in multiple locations. FDA saves letters in a PDF format
                   that cannot be searched by keyword. As a result, FDA could not locate
                   letters for our sampled supplements using the product name or the
                   manufacturer’s name.
                   As of December 2011, FDA staff told us the agency had letters waiting to
                   be scanned that dated back almost a year. FDA files the paper copies of
                   notification letters chronologically. Therefore, FDA would have had to
                   search thousands of files by hand to locate letters for our sample of
                   supplements.




                                                                                                     15
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   The majority of notification letters we reviewed were missing
                   required information
                   Among the 21 letters FDA was able to retrieve, 17 did not contain all the
                   required information. Eleven notification letters contained
                   structure/function claims that did not match those listed on the products’
                   labels. Manufacturers may have submitted other letters to FDA with the
                   correct claims, but FDA could not retrieve them. Only 12 of the
                   21 letters attested that the companies had substantiation that the claims
                   were truthful and not misleading. Finally, because FDA regulations do not
                   require manufacturers to include in their notifications the date that they
                   first marketed a supplement, FDA cannot verify whether the notification
                   was submitted within 30 days as required. Of the 21 letters we reviewed,
                   only 4 made any reference to the 30-day timeframe and none listed the
                   date that the supplement was first marketed.

                   Seven percent of supplements in our sample were
                   missing the required disclaimer for structure/function
                   claims
                   Nine supplements in our sample were missing the required disclaimer on
                   the label (see Table 3). By law, all structure/function claims must be
                   accompanied by the following disclaimer: “This statement has not been
                   evaluated by the Food and Drug Administration. This product is not
                   intended to diagnose, treat, cure, or prevent any disease.” 44 Academic
                   researchers have found that the lack of disclaimers can lead consumers to
                   assume that FDA has reviewed or approved a product. 45


                    Table 3: Supplement Labels That Were Missing the Required Disclaimer
                    Supplement Type (n=127)                                         Label Missing Required Disclaimer
                    Immune Support                                                                                           5
                    Weight Loss                                                                                              4
                    Source: OIG analysis of dietary supplement labels, 2011.




                   Twenty percent of the supplements in our sample had
                   prohibited disease claims on the labels
                   The 26 supplements in our sample that had prohibited claims purported to
                   treat diseases, such as influenza, the common cold, herpes, and HIV, while

                   44
                        21 U.S.C. § 343(r)(6); 21 CFR § 101.93(c)(1).
                   45
                     Neal Hooker and Ratapol Teratanavat, “Dissecting Qualified Health Claims: Evidence From
                   Experimental Studies,” Critical Reviews in Food Science and Nutrition, vol. 48, issue 2, February 2008.

                                                                                                                        16
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   others claimed to reduce cholesterol or prevent diabetes (see Table 4).
                   Pursuant to FDA regulations, dietary supplements may not make explicit
                   or implicit disease claims. If a product marketed as a dietary supplement
                   bears a disease claim, it must be regulated as a drug. 46 Supplements that
                   make disease claims could mislead consumers into using them as
                   replacements for prescription drugs or other treatments for medical
                   conditions, with potentially dangerous results.

                        Table 4: Examples of Disease Claims From Labels of Sampled Dietary
                        Supplements

                        Disease Claim                                       Implied or Stated Benefit

                        “Conditions which may benefit from aggressive       Treatment of human immunodeficiency virus,
                        nutritional support include cancer, HIV/AIDS,       methicillin-resistant Staphylococcus aureus,
                        MRSA, Chronic Fatigue Syndrome”                     chronic fatigue syndrome

                        “To cure cough and chest problems; a cure for
                                                                            Cure of the common cold or other illnesses
                        every ailment”


                        “Provides defense against heart diseases, blood     Prevention of heart disease, high blood
                        pressure, diabetes and other terrible conditions”   pressure, or diabetes


                        “Contains natural cancer fighters, boosts           Treatment or prevention of cancer, the
                        immune system, helps prevent colds, flu”            common cold, influenza virus

                        Source: OIG analysis of sampled dietary supplement labels, September 2011.




                   46
                        21 CFR § 101.93(f).

                                                                                                                      17
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   CONCLUSION AND RECOMMENDATIONS
                   Under Federal law, FDA does not test or approve dietary supplements
                   prior to sale. Therefore, consumers rely on a supplement’s claims to
                   determine whether the product will provide a desired effect, such as
                   weight loss or immune support. Although supplement manufacturers’ use
                   of structure/function claims has grown, FDA’s authority to monitor such
                   claims remains limited by law. FDA currently has three main
                   requirements to help ensure that structure/function claims on dietary
                   supplement labels are truthful and not misleading: substantiation to
                   support the claims, which manufacturers must possess but need not submit
                   to FDA; notification to FDA of claims within 30 days of first marketing
                   the supplement with the claim; and a required disclaimer on supplement
                   labels.
                   The results of our analysis, which is based on 127 dietary supplements,
                   demonstrate the extent to which submitted substantiation of
                   structure/function claims fell short of meeting FDA’s recommendations for
                   competent and reliable evidence. In addition, our analysis revealed
                   noncompliance with requirements regarding disclaimers and problems
                   with FDA’s notification process. These results raise questions about the
                   extent to which structure/function claims are truthful and not misleading.
                   Finally, our analysis also found that more than one in five supplements in
                   our sample had disease claims, which are prohibited, in addition to
                   structure/function claims.
                   To improve oversight of structure/function claims, we recommend that
                   FDA take the following steps:
                   Seek Explicit Statutory Authority To Review Substantiation for
                   Structure/Function Claims To Determine Whether Claims Are
                   Truthful and Not Misleading
                   To better ensure that structure/function claims are truthful and not
                   misleading as required by DSHEA, FDA requires explicit statutory
                   authority to compel manufacturers to submit substantiation that supports
                   their claims. We defer to FDA concerning the breadth of that authority.
                   FDA could seek legislation requiring approval for all structure/function
                   claims in the labeling of dietary supplements. However, absent dedicated
                   funding to support such an activity, FDA’s resource constraints could be
                   prohibitive.
                   The legislation could require manufacturers to submit for review their
                   substantiation for all structure/function claims upon request by FDA or in
                   circumstances identified by FDA in regulation or guidance. For example,
                   by focusing on supplements that appear to make false or misleading

                                                                                                     18
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   structure/function claims, FDA could target its resources where major
                   vulnerabilities exist. If FDA obtains explicit statutory authority to review
                   substantiation, its current guidance could form the basis of new regulation.
                   Furthermore, FDA could also develop a protocol by which to assess
                   substantiation.
                   Improve the Notification System To Make It More Organized,
                   Complete, and Accurate
                   The current filing system for notification letters does not enable FDA to
                   readily locate information on existing structure/function claims or the
                   manufacturers that submit them. An effective notification system would
                   include:
                       •    An organized and indexed filing system that permits FDA to search
                            for and retrieve notification letters using the name of the
                            supplement and manufacturer.
                       •    Updated guidance that informs manufacturers of the information
                            required in notification letters. FDA’s Web site and ongoing
                            communication with the supplement industry could create
                            additional opportunities to provide this information.
                       •    Useful information to be provided, such as the date that
                            manufacturers first marketed the supplement with the claim.
                            Having this date would enable FDA to determine whether
                            manufacturers are complying with the 30-day timeframe for
                            notification and would provide FDA with a more complete view of
                            structure/function claims as they enter the market. This may
                            require FDA to amend its current regulations.
                   Expand Market Surveillance of Dietary Supplements To
                   Enforce the Use of Disclaimers for Structure/Function Claims
                   and Detect Disease Claims
                   FDA currently conducts Internet surveillance to detect supplements that
                   are sold online with disease claims or false and misleading claims. FDA
                   could also consider expanding its surveillance to retail establishments to
                   detect disease claims and ensure that manufacturers that make
                   structure/function claims are placing the required disclaimer on their
                   products. FDA may also find additional opportunities to review
                   supplements at industry gatherings, such as trade shows or promotional
                   events.




                                                                                                     19
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, FDA did not explicitly concur with our
                   first recommendation, but said it would consider it. FDA concurred with
                   our second and third recommendations.
                   In addressing our first recommendation to seek explicit statutory authority
                   to review substantiation for structure/function claims, FDA stated that it
                   will consider seeking expanded authority. FDA commented that a
                   manufacturer must have substantiation that a structure/function claim used
                   in the labeling of a supplement is truthful and not misleading. Further, the
                   agency stated that it may ask manufacturers for such substantiation, but
                   these requests are not always granted. We ask that FDA’s final
                   management decision clarify the agency’s plans for seeking explicit
                   statutory authority to review substantiation.
                   FDA concurred with our recommendation to improve its notification
                   system for structure/function claims to make it more organized, complete,
                   and accurate. FDA stated that it has initiated a feasibility study to
                   determine whether adapting its existing system would enable it to access
                   all structure/function claim notifications. The agency said it would also
                   assess regulatory changes that would be required to ensure that
                   supplement manufacturers comply with the 30-day notification
                   requirement.
                   Finally, FDA concurred with our recommendation to expand market
                   surveillance to enforce the use of disclaimers for structure/function claims
                   and to detect disease claims. FDA commented that it will continue to
                   focus primarily on disease claims because they pose the greatest threat to
                   public health, but that it will continue to address situations in which
                   products fail to meet dietary supplement labeling requirements, including
                   the use of structure/function claims without a disclaimer.
                   For the full text of FDA’s comments, see Appendix B.




                                                                                                     20
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   APPENDIX A            ADDITIONAL DESCRIPTIVE STATISTICS
                   Table A-1: Sampled Supplements, by Supplement Type and Source

                   Supplement Type                                                      Number in Sample

                   Immune Support                                                                       67
                   Weight Loss                                                                          60


                   Retail                                                                               67
                   Internet                                                                             60
                     Total                                                                              127
                   Source: Office of Inspector General (OIG) analysis of sampled dietary supplements,
                   September 2011.



                   Table A-2: Number of Supplements for Which Manufacturers Submitted
                   Substantiation, by Supplement Type and Source
                                                                                  Manufacturer Submitted
                   Supplement Type
                                                                                          Substantiation
                   Immune Support                                                                       39
                   Weight Loss                                                                          33


                   Retail                                                                               42
                   Internet                                                                             30
                     Total                                                                              72
                   Source: OIG analysis of sampled dietary supplements, September 2011.



                   Table A-3: Number of Substantiation Documents Received, by Supplement
                   Type
                                                                                                    Immune
                                                                             Weight Loss
                                                                                                    Support


                    Total number of substantiation documents received                 667               957


                    Median (range) number of substantiation
                                                                                21 (1–54)        21 (1–137)
                    documents per supplement

                    Source: OIG analysis of sampled dietary supplements, September 2011.




                                                                                                              21
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   Table A-4: Number of Structure/Function Claims and Substantiation
                   Documents, by Supplement Type

                                                                                                       Immune
                                                                               Weight Loss
                                                                                                       Support

                    Median (range) number of structure/function claims
                                                                                     3 (1–7)           2 (1–12)
                    per supplement


                    Median (range) number of substantiation
                                                                                   8 (1–137)           6 (1–54)
                    documents per structure/function claim

                    Source: OIG analysis of substantiation documents submitted by manufacturers of
                    sampled dietary supplements, September 2011.


                   Table A-5: Median Population of Human Studies Submitted by
                   Manufacturers as Substantiation, by Supplement Type

                                                                                                       Immune
                                                                               Weight Loss
                                                                                                       Support


                    Median population of human studies overall                            27                 40



                    Median population of human intervention studies                       27                 34



                    Median population of human observational studies                      83                267

                    Source: OIG analysis of substantiation documents submitted by manufacturers of
                    sampled dietary supplements, September 2011.




                   Table A-6: Examples of Structure/Function Claims and Disease Claims
                   From Labels of Sampled Supplements

                    Structure/Function Claim                                                    Disease Claim

                                                                           “Conditions which may benefit from
                                                                         aggressive nutritional support include
                    “Supports healthy immune function”
                                                                            cancer, HIV/AIDS, MRSA, Chronic
                                                                                            Fatigue Syndrome”

                    “Increases your body's metabolic rate and            “To cure cough and chest problems; a
                    decreases your appetite”                                            cure for every ailment”

                                                                  “Provides defense against heart diseases,
                    “Promotes fat-burning and weight loss”        blood pressure, diabetes and other terrible
                                                                                                 conditions”
                    “Enhances the growth of beneficial
                                                                       “Contains natural cancer fighters, boosts
                    intestinal microflora and stimulates non-
                                                                      immune system, helps prevent colds, flu”
                    specific immune activity”
                    Source: OIG analysis of sampled dietary supplement labels, September 2011.




                                                                                                                   22
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   Table A-7: Supplement Labels That Had Disease Claims

                    Supplement Type (n=127)                                         Label Included Disease Claim
                    Immune Support                                                                           17
                    Weight Loss                                                                              11
                    Source: OIG analysis of dietary supplement labels, 2011.




                                                                                                             23
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                      APPENDIXB
                      Agency Comments

                    /"'"""··...
                (      ~DEPARTMENT OF HEALTH AND HUMAN SERVICES
                 ....:::::~}\.-         .        --- - - -· - - - - ---­
                                                                                                            Food and Drug Administration
                                                                                                            Silver Spring MD 20993




                                  Date:         August 21, 2012

                                  To:           Inspector General

                                  From:         Acting Associate Commissioner for Policy and Planning

                                  Subject:      FDA's General Comment to OlG Draft Report on Dietary Supplements:
                                                Stmcturc!Function Claims Fail to Meet Federal Requirements

                                  FDA is providing the attached general comments to the Ofticc of Inspector General's draft report
                                  entitled, Dietary Supplements: Structure/Function Claims Fail to Meet Federal Requirements
                                  (OE!-01-11-00210).

                                  FDA appreciates the opportunity to review and comment on this draft repmi before it is
                                  published.

                                                                                         /S/
                                                                              David H. Dorsey


                                  Attachment




                                                                                                                                     24
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11 -00210)
                   APPENDIX B (CONTINUED)




                                                                                                     25
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   APPENDIX B (CONTINUED)




                                                                                                     26
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Joyce Greenleaf, Regional
                   Inspector General for Evaluation and Inspections in the Boston regional
                   office, and Russell Hereford, Deputy Regional Inspector General.
                   Melissa Hafner served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Boston regional office
                   who contributed to the report include Tim Chettiath, Alyson Cooper,
                   Jessica Fargnoli, Danielle Fletcher, Maria Maddaloni, and Jesse Valente;
                   other regional office staff who contributed include Maria Balderas and
                   Margarita Rodriguez; central office staff who contributed include Heather
                   Barton, Kevin Farber, and Debra Roush.




                                                                                                     27
Dietary Supplements: Structure/Function Claims Fail To Meet Federal Requirements (OEI-01-11-00210)
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
